            OFFICE OF
     THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


THE SOCIAL SECURITY ADMINISTRATION’S
       LISTING OF IMPAIRMENTS

      March 2009   A-01-08-18023




 AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                        SOCIAL SECURITY
MEMORANDUM

Date:      March 27, 2009                                                            Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   The Social Security Administration’s Listing of Impairments (A-01-08-18023)


           OBJECTIVE

           Our objective was to assess the Social Security Administration’s (SSA) efforts to update
           the Listing of Impairments (the listings) used to determine whether a person is disabled.

           BACKGROUND
           SSA first included the listings in its regulations in 1968 to help expedite the processing
           of disability claims under the Disability Insurance program. The listings have also been
           used for the Supplemental Security Income program since it began in 1974. The
           listings for each body system describe impairments that are considered severe enough
           to prevent an adult from doing any gainful activity or to cause marked and severe
           functional limitations in a child younger than 18 years old. Most of the listed
           impairments are permanent or expected to result in death; however, some include a
           specific statement of duration. For all others, the evidence must show the impairment
           has lasted or can be expected to last for a continuous period of at least 12 months.
           (See Appendix B for information about SSA’s process for evaluating a disability.)

           The listings are organized by major body systems—14 for adults (Part A) and 15 for
           children (Part B), but adult criteria can be applied to children if the disease processes
           have a similar effect on adults and children (see Table 1). Altogether, SSA has over
           100 listed impairments.
Page 2 - The Commissioner


                 Table 1: SSA’s Listing of Impairments by Body System
                        Adults                                            Children
                                                        100.00 Growth Impairment
    1.00 Musculoskeletal System                         101.00 Musculoskeletal System
    2.00 Special Senses and Speech                      102.00 Special Senses and Speech
    3.00 Respiratory System                             103.00 Respiratory System
    4.00 Cardiovascular System                          104.00 Cardiovascular System
    5.00 Digestive System                               105.00 Digestive System
    6.00 Genitourinary Impairments                      106.00 Genitourinary Impairments
    7.00 Hematological Disorders                        107.00 Hematological Disorders
    8.00 Skin Disorders                                 108.00 Skin Disorders
    9.00 Endocrine System                               109.00 Endocrine System
    10.00 Impairments that Affect Multiple              110.00 Impairments that Affect Multiple
           Body Systems                                        Body Systems
    11.00 Neurological                                  111.00 Neurological
    12.00 Mental Disorders                              112.00 Mental Disorders
    13.00 Malignant Neoplastic Diseases                 113.00 Malignant Neoplastic Diseases
    14.00 Immune System Disorders                       114.00 Immune System Disorders

The listings help ensure disability determinations have a sound medical basis,
claimants receive equal treatment based on specific criteria, and disabled individuals
can be readily identified and awarded benefits if appropriate. All disability claimants
                                                              1
who are not performing substantial gainful activity (SGA) and have severe impairments
are screened against the listings to quickly identify individuals who clearly meet the
definition of disability. 2 If the claim is not allowed based solely on the medical evidence,
the Agency makes a disability determination based on the claimant’s abilities, age,
education and vocational history. Quick identification of obvious cases allows SSA to
avoid time-consuming and resource-intensive inquiries into all of the facts of many
cases.


1
  SSA recently implemented two initiatives to quickly identify claims that obviously meet SSA’s disability
standards. The Quick Disability Determination initiative—implemented in August 2006—electronically
identifies initial disability claims in which (a) there is a high degree of probability that the claimant is
disabled; (b) evidence of the claimant’s allegations can be easily and quickly verified; and (c) the case can
be processed quickly in the disability determination services. 20 C.F.R. §§ 404.1619 and 416.1019 and
SSA, POMS, DI 23022.010. The Compassionate Allowance initiative—implemented in October 2008—
quickly identifies diseases and other medical conditions that invariably qualify under the listings based on
minimal, but sufficient, objective medical information. SSA, POMS, DI 23022.015.

2
 20 C.F.R. §§ 404.1572 and 416.972: SGA means the performance of significant physical and/or mental
activities in work for pay or profit, or in work of a type generally performed for pay or profit.
Page 3 - The Commissioner


The proportion of initial claims allowed based on the listings have declined through the
years. In the early years of the program, about 93 percent of initial allowances were
                                                                                 3
based on listings. This declined to 82 percent in 1983 and 49 percent in 2004, and the
rate has remained at that level since. As shown in Chart 1, 58 percent of the 1,021,001
initial and reconsideration allowances in Fiscal Year (FY) 2008 met or equaled a
listing. 4

                            Chart 1: FY 2008 Initial and Reconsideration Allowances



                   Did Not Meet or Equal a                                                 Met or Equaled a Listing
                           Listing                                                          593,434 Claims (58%)
                    427,567 Claims (42%)




Chart 2 shows that the Mental Disorders body system had the highest percentage of
allowances. SSA has not comprehensively revised this body system in 23 years but
plans to do so by December 2009.

                   Chart 2: Number of Initial and Reconsideration Claims Allowed Under Each
                                                Listing in FY 2008

                  Musculoskeletal                 20,857
                   Special Senses                    27,126
                      Respiratory                   24,905
                   Cardiovascular                 18,485
                         Digestive           13,744
                     Genitourinary                 21,244
                    Hematological         4,687
                              Skin       2,002
                        Endocrine        2,094
            Multiple Body Systems         6,563
                      Neurological                                   62,359
                           Mental                                                                                     192,275
     Malignant Neoplastic Diseases                                                95,622
                   Immune System             13,493
              Grow th Impairments        3,423
         Specific Listing Unknow n                                            84,555

                                     0                       50000              100000               150000           200000




3
    Social Security Advisory Board, Disability Decision Making: Data and Materials, p. 67, May 2006.
4
    The data for Charts 1 and 2 were provided by SSA’s Office of Disability Programs in November 2008.
Page 4 - The Commissioner



UPDATES TO THE LISTINGS

From 1968 to the mid-1980s, SSA revised the listings for various reasons by adding
and/or deleting information/criteria as necessary. The last major update of the listings
was made in 1985, when expiration dates ranging from 3 to 8 years were inserted for
listing sections. SSA stated that expiration dates were necessary to ensure the Agency
periodically reviews (and, if necessary, updates) the listings to consider medical
advances in the treatment and evaluation of disabilities and program experience.

By the late 1990s, the Office of the Inspector General (OIG), Government
Accountability Office (GAO), and Social Security Advisory Board were expressing
concern that SSA was not updating the listings regularly but was simply extending the
expiration dates for a number of years before they expired. For example, in 1997, SSA
asked the OIG for comments on a regulation package to extend the expiration dates for
eight listings. The OIG expressed its concern that blanket extension of listings that
have not been reviewed frustrates the purpose of setting expiration dates.

In August 2000, we found that SSA had not updated some listings in over 10 years and
that the Mental Disorders body system—which accounted for the highest percentage of
new disability awards—had not had a comprehensive revision since 1985. 5
`
In 2002, GAO reported that the listings had not been fully updated to reflect medical
and technological advances.

        Recent scientific advances in medicine and assistive technology and changes
        in the nature of work and the types of jobs in our national economy have
        generally enhanced the potential for people with disabilities to perform work-
        related activities.   Advances in medicine have afforded the scientific
        community a deeper understanding of and ability to treat disease and injury.
        Medical advances in treatment (such as organ transplantations), therapy, and
        rehabilitation have reduced the severity of some medical conditions and have
        allowed individuals to live with greater independence and function in settings
        such as the workplace. 6

Since 2000, the OIG and GAO have issued several other reports and made
recommendations related to the listings. In general, these reports highlighted the fact
that the listings were not up to date, although SSA was working to update them. (See
Appendix C for details of these reports.)




5
 SSA OIG, Status of the Social Security Administration’s Updates to the Medical Listings
(A-01-99-21009), August 2000.
6
 GAO, Re-Examining Disability Criteria Needed to Help Ensure Program Integrity (GAO-02-597), p. 13,
August 2002.
Page 5 - The Commissioner


METHODOLOGY

To perform this review, we researched issues related to the listings in the Social
Security Act; SSA’s regulations, policies and procedures; the Federal Register; and
prior reports issued by the OIG and the GAO. We also interviewed SSA officials to
obtain information to determine the status of updates to the listings. (See Appendix D
for additional information on our Scope and Methodology.)

RESULTS OF REVIEW
SSA has made progress in updating its listings, but some listings have not been
updated in many years and do not reflect recent medical and technological advances.
Therefore, the listings may not be as effective a screening tool as they were in the past.

SSA’S NEW PROCESS FOR UPDATING THE LISTINGS
                                                                    7
In 2003, SSA implemented a new process for revising the listings. This new process
was designed to ensure there are continuous updates and monitoring of the listings
about every 3 to 4 years. Under this new process, the Agency conducts a case study
within 1 year of the newly published listing and determines whether an action is
necessary—such as training, formal instructions, or a new regulation. If no action is
needed, SSA will continue to monitor the listing, conduct another case study 4 years
before the expiration date of the listing and begin the process of updating the listing.
(See Appendix E for a flowchart of the entire Listing Revision Business Process.)

Under this new model, SSA has incorporated a feedback loop to allow for increased
input. After a regulation is published, SSA solicits questions from Agency components
and performs internal and external studies 1 year after the listing is published. An
Advance Notice of Proposed Rulemaking (ANPRM) is published in the Federal
Register. The Agency solicits comments regarding the ANPRM through outreach
efforts to medical experts, advocacy groups, patients, and adjudicators and receives
input from SSA Regional staff and Medical Specialists. SSA performs case studies and
gathers comments on the proposed listing, and the Office of Management and Budget
reviews the ANPRM. SSA then publishes a Notice of Proposed Rulemaking (NPRM)
and again seeks input and conducts reviews and case studies before publishing the
final regulation.




7
  Since 2003, SSA has used the new process for all listings updates except revisions to the Malignant
Neoplastic Listings in 2004 (which were already in the final rulemaking phase at the time) and revisions to
the Vision Loss Rules in 2006 (which codified procedures that had previously been published in a Social
Security Ruling).
Page 6 - The Commissioner


CONTRACTS WITH THE INSTITUTE OF MEDICINE

In 2004, SSA awarded a contract to the Institute of Medicine (IOM), seeking advice on
improving the listings. The IOM recommended that SSA increase the value and utility
of the listings by examining and monitoring their performance, evaluating and improving
their effectiveness in expediting awards in obvious cases, and making timely changes in
response to these evaluations.

In October 2008, SSA contracted with the IOM to establish a Standing Committee of
medical experts to advise the Agency in keeping the listings up to date. In FY 2009,
SSA plans to form the Standing Committee—consisting of approximately 15 members
who will serve a 3-year term and survey literature, look for ideas to improve the listings,
hold meetings, and organize workgroups and public sessions. Once the Standing
Committee is organized, SSA will form Consensus Study Committees specific for each
body system and consisting of members from the Standing Committee and additional
experts. The Agency expects to have two to four Consensus Study Committees
working at a time.

STATUS OF UPDATES TO THE LISTINGS

In its 2008-2013 Strategic Plan, SSA set a goal to improve the speed and quality of the
disability process. One objective of this goal was to regularly update the disability
policies and procedures, which include the listings. SSA has developed a schedule to
ensure it updates all the listings at least once every 5 years. 8

As of March 2009, of the 15 body systems (detailed in Table 2),

•     1 had not been updated within 5 years, and the Agency had not published a time
      frame for issuing a revision (Growth Impairment); 9

•     6 had not been updated within 5 years, but SSA expected to update them in the
      next 12 months; and

•     8 had been updated within 5 years.




8
    SSA, Strategic Plan Fiscal Years 2008-2013, p. 13, September 2008.
9
 SSA reported that it plans to publish a time frame for revising this body system in spring 2009 Unified
Agenda and Regulatory Plan.
  Page 7 - The Commissioner


                         Table 2: Status of the Listings by Body System
                                                               Years
                                      Effective Date of        Since
            Listing                                                              Status as of March 2009 10
                                       Last Revision            Last
                                                              Revision
Growth Impairment                   March 16, 1977 11             31        NPRM expected December 2009
Neurological                        January 6, 1986               23        NPRM expected January 2010
Hematological Disorders             January 6, 1986               23        NPRM expected September 2009
Endocrine System                    January 6, 1986               23        NPRM expected November 2009
                                                        12
Mental Disorders                    August 28, 1985               23        NPRM expected in
                                    (adults)                                September 2009
                                    December 12, 1990             18
                                    (children)
Respiratory System                  October 7, 1993               15        NPRM expected November 2009
Musculoskeletal System              February 19, 2002              6        NPRM expected September 2009
Malignant Neoplastic                December 15, 2004              4        Final expected in August 2009
Diseases
Skin Disorders                      July 9, 2004                   4        ANPRM expected in June 2009
Genitourinary Impairments           September 6, 2005              3        Set to expire September 2013
Impairments that Affect             October 31, 2005               3        Set to expire November 2013
Multiple Body Systems
Cardiovascular System               April 13, 2006                 2        NPRM expected October 2009
Special Senses and Speech           February 20, 2007              2        Final expected in September 2009
                                    (vision)                                (hearing)
Digestive System                    December 18, 2007              1        NPRM expected October 2009
Immune System Disorders             June 16, 2008                  1        NPRM expected October 2009
                                                                            (HIV only)




  10
   The expected revision dates in the chart were SSA’s plan as of March 2009. However, because of the
  moratorium on Federal regulations imposed on January 20, 2009 and the amount of time that the Office of
  Management and Budget has to review draft regulations, these dates may change.
  11
    SSA first published the Growth Impairment listings on March 16, 1977. SSA made minor changes on
  December 6, 1985 and April 24, 2002 but had not comprehensively updated or revised them since 1977.
  12
    Although the Agency has not revised the entire mental body system since issuing the 1985 adult
  revisions and 1990 child revisions, it did issue extensive revisions to the listings in 2000, effective on
  September 20, 2000.
Page 8 - The Commissioner


As of March 2009, several body systems had not been comprehensively revised in over
15 years, including the Growth Impairment body system—not updated in 31 years, and
four body systems (Neurological, Hematological Disorders, Endocrine System, and
Mental Disorders for adults) that have not been updated in 23 years.

In January 2008, SSA officials informed GAO the Agency expected to finish updating all
                     13
listings by mid-2010. In January 2009, SSA reported it was still on track to meet this
goal.

CONCLUSION AND RECOMMENDATIONS
Overall, SSA has made progress in updating the listings and has plans to keep them
current. In addition, the Agency has developed a new process for updating the listings.
According to SSA, advocate groups are positive about this new process. One
advocacy group testified before the House Committee on Ways and Means and
applauded SSA’s new process for reviewing the current listings. 14 They believe that the
public input SSA solicits will help to significantly improve the quality of the final
provisions.

To ensure the listings are current, we recommend SSA:

1. Update all listings over 5 years old.

2. Continue to monitor the listings to ensure they reflect medical and technological
   advances.

AGENCY COMMENTS

SSA agreed with the recommendations (see Appendix F).




                                                        Patrick P. O’Carroll, Jr.




13
  GAO, Federal Disability Programs, More Strategic Coordination Could Help Overcome Challenges to
Needed Transformation (GAO-08-635), May 2008.
14
  Marty Ford, Co-Chair, Social Security Task Force, Consortium for Citizens with Disabilities, Statement
for the Record (U.S. House of Representatives, Committee on Ways and Means, Subcommittee on Social
Security, May 17, 2005).
                                       Appendices
APPENDIX A – Acronyms
APPENDIX B – The Social Security Administration’s Process for Evaluating Disability
APPENDIX C – Prior Reports Related to Listings
APPENDIX D – Scope and Methodology
APPENDIX E – Listings Revision Business Process
APPENDIX F – Agency Comments
APPENDIX G – OIG Contacts and Staff Acknowledgments
                                                        Appendix A

Acronyms
ANPRM    Advance Notice of Proposed Rulemaking
C.F.R.   Code of Federal Regulations
DDS      Disability Determination Services
FY       Fiscal Year
GAO      Government Accountability Office
IOM      Institute of Medicine
NPRM     Notice of Proposed Rulemaking
ODAR     Office of Disability Adjudication and Review
OIG      Office of the Inspector General
POMS     Program Operations Manual System
RFC      Residual Functional Capacity
RO       Regional Office
SGA      Substantial Gainful Activity
SSA      Social Security Administration
                                                                                       Appendix B

The Social Security Administration’s Process
for Evaluating Disability
The Social Security Administration (SSA) has a five-step sequential process for
evaluating disability for adults, which generally follows the definition of disability in the
Social Security Act and the regulations (Chart B-1). An individual is considered to be
disabled under SSA’s regulations if he or she is unable to engage in substantial gainful
              1
activity (SGA) by reason of a medically determinable physical or mental impairment
that can be expected to result in death or has lasted or can be expected to last for a
continuous period of not less than 12 months. 2

At step one in the process, SSA generally considers whether the claimant is still
working. If the claimant is not performing SGA, the claim is sent for a medical
determination of disability. When the claim is initially developed, the adjudicator
concurrently requests all the evidence needed for consideration at steps two through
five of the sequential evaluation process. The adjudication process stops whenever the
SSA obtains evidence sufficient to allow the claim or if the claim is a denial after step
      3
five.

At step two, SSA determines whether the claimant’s condition is severe. 4 If a claimant
has a medically determinable severe impairment, the Agency applies step three and
looks to the listings. If the severity of the impairment meets or medically equals a
specific listing, the individual is determined to be disabled.

If the individual’s impairment does not meet or medically equal a listing, the Agency
looks to steps 4 and 5. At step 4, the Agency determines whether the claimant can



1
  20 C.F.R. §§ 404.1572 and 416.972: SGA means the performance of significant physical and/or mental
activities in work for pay or profit, or in work of a type generally performed for pay or profit. As of 2009,
"countable earnings" of employees indicate SGA and "countable income" of the self-employed is
"substantial" if the amount averages more than $980 per month for non-blind individuals or $1,640 for
blind individuals, SSA, Program Operations Manual System (POMS), DI 10501.001.
2
 Social Security Act, Title II, § 223(d)(1)(A), 42 U.S.C. § 423(d)(1)(A) and Title 16, § 1614(a)(3)(A),
42 U.S.C. § 1382c(a)(3)(A). 20 C.F.R. §§ 404.1520 and 416.920.
3
  If the claimant disagrees with the Agency’s initial disability determination, he or she can file an appeal
within 60 days from the date of notice of the determination. In most cases, there are four levels of appeal,
including a (1) reconsideration by the disability determination services, (2) hearing by an administrative law
judge, (3) review by the Appeals Council and (4) review by the Federal Courts.
4
 20 C.F.R. §§ 404.1521 and 416.921: An impairment or combination of impairments is not severe if it
does not significantly limit an individual’s physical or mental ability to do basic work activities.


                                                     B-1
perform past relevant work, considering his or her residual functional capacity (RFC) 5
and the physical and mental demands of the work he or she did. If the claimant can
perform past relevant work, then the claim is denied. If the claimant cannot perform
past relevant work, then at step 5, the Agency determines whether the claimant can
perform any other work, considering his or her RFC, age, education, and past work
experience. If the claimant cannot perform any other work, then SSA finds him or her
disabled. 6


                           Chart B-1: SSA’s Five-Step Sequential Evaluation
                                  for Determining Disability for Adults


                                           Step 1: Work Test
                            Yes     Is the claimant engaging in
                                    substantial gainful activity?

                                                   No

                               No       Step 2: Severity Test
                                    Does the claimant have a
                                    severe impairment(s)?

                                                   Yes

                      Not            Step 3: Medical Listings Test        Yes
                    Disabled        Does the impairment(s) meet or                 Disabled
                                    equal a listing?

                                                   No

                                      Step 4: Previous Work Test
                               No   Does the impairment(s) prevent
                                    the claimant from doing past
                                    relevant work?
                                                   Yes

                                        Step 5: Other Work Test
                                    Does the impairment(s) prevent
                            No                                            Yes
                                    the claimant from doing any
                                    other work that exists in the
                                    national economy?




5
  20 C.F.R. §§ 404.1545 and 416.945: An individual’s impairment(s), and any related symptoms, such as
pain, may cause physical and mental limitations that affect what he or she can do in a work setting. The
residual functional capacity is the most the individual can still do despite these limitations. SSA assesses
residual functional capacity based on all the relevant evidence in the case record.
6
 20 C.F.R. §§ 404.1594(f) and 416.994(b)(5): SSA has another sequential process for evaluating whether
a disabled beneficiary’s disability continues, which includes a step for considering the listings.


                                                     B-2
As shown in Chart B-2, SSA has a similar sequential process with three steps for
evaluating disability for children. 7 Steps one and two are the same as for adults. At
step three for children, SSA determines whether the impairment(s) meets or medically
equals a listing or functionally equals the listings.


                           Chart B-2: SSA’s Three-Step Sequential Evaluation
                                 for Determining Disability for Children

                             Yes          Step 1: Work Test
                                    Is the claimant engaging in
                                    substantial gainful activity?

                                          No
                                        Step 2: Severity Test
                             No     Does the claimant have a
                                    severe impairment?

                                                   Yes
                                    Step 3: Medical Listings Test
                   Not         No   Does the impairment meet or        Yes   Disabled
                 Disabled           medically equal a listing or
                                    functionally equal the listings?




7
    20 C.F.R. § 416.924.


                                                     B-3
                                                                       Appendix C

Prior Reports Related to the Listings
The Office of the Inspector General (OIG) and Government Accountability Office (GAO)
have issued several reports related to the listings.

In August 2000, we issued our report, Status of the Social Security Administration’s
Updates to the Medical Listings (A-01-99-21009). In this report, we stated that the
Social Security Administration (SSA) had not updated some listings in over 10 years.
We also found that the Mental Disorders body system, which accounted for the highest
percentage of new disability awards, had not had a comprehensive revision since 1985.
We recommended that SSA establish a performance measure for its initiative to update
the listings, with a specific timetable for each of the planned phases. While SSA
agreed to keep a focus on updating the listings, the Agency did not believe that it
should be accomplished through the establishment of a performance measure.

In August 2002, GAO issued a report titled, SSA and VA Disability Programs,
Re-Examination of Disability Criteria Needed to Help Ensure Program Integrity
(GAO-02-597). GAO found the length of time SSA took to revise the medical criteria
could undermine the purpose of an update, the updates had not fully captured the
benefits afforded by advances in treatment, and SSA had not incorporated labor market
changes. GAO recommended that SSA use its annual performance plan to delineate
strategies for, and progress in, periodically updating the listings and that SSA study and
report to Congress the effect that a comprehensive consideration of medical treatment
and assistive technologies would have on SSA disability programs’ eligibility criteria and
benefit package.

In January 2007, GAO issued a report titled, High Risk Series, An Update
(GAO-07-310). GAO found that SSA’s disability program was based on definitions and
concepts that originated over 50 years ago, despite scientific advances that reduced the
severity of some medical conditions and allowed individuals to live with greater
independence and function in work settings. Although SSA had made some progress
toward improving its disability program, significant challenges remained.

In December 2007, GAO issued a report titled, Social Security Disability, Better
Planning, Management, and Evaluation Could Help Address Backlogs (GAO-08-40).
This report discussed the hearings backlog reduction plan, which focused on updating
SSA’s medical eligibility criteria, expediting cases for which eligibility was more clear-
cut, improving the electronic processing system, and focusing heavily on clearing the
backlog at the hearings level through a number of targeted actions. The Commissioner
informed GAO that as part of the effort to expedite cases, the listings would be updated
so that disability categories were better defined.




                                           C-1
In May 2008, GAO issued a report titled, Federal Disability Programs, More Strategic
Coordination Could Help Overcome Challenges to Needed Transformation
(GAO-08-635). GAO found that SSA had implemented a new process for updating its
eligibility criteria, using an outreach-based model to update the listings and incorporate
feedback from multiple parties, including medical experts and disability examiners.
GAO also found that SSA had made changes to one-half of its 14 body systems to
reflect medical advances. SSA officials informed GAO that the Agency expected to
finish updating the remaining seven body systems by mid-2010.




                                            C-2
                                                                        Appendix D

Scope and Methodology
To accomplish our objective, we:

      Researched the Social Security Act and the Social Security Administration’s
       (SSA) regulations, policies, and procedures related to the listings.

      Researched the Federal Register to identify updates to the listings.

      Researched prior reports issued by the Office of the Inspector General and
       Government Accountability Office related to the listings.

      Interviewed SSA officials to obtain information on the status of the listings.

We performed our review from October 2008 through February 2009 in Boston,
Massachusetts. The entity reviewed was the Office of Disability Programs under the
Deputy Commissioner for Retirement and Disability Policy. We conducted this
performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe the evidence obtained provides
a reasonable basis for our findings and conclusions based on our audit objectives.
                                                                                                                                                               Appendix E

Listings Revision Business Process
The Social Security Administration implemented a new process for updating the listings.
See the flowchart below for details (and Appendix A for acronyms).


               Office of Disability Programs
            Listing Revision Business Process                                                                  Formal instructions
                                                                                                                                          Draft and clear
                                                                                                                                           ruling and/or
                                                                                                                 Ruling/POMS
                                                                                                                                               POMS


  Publish new or revised
                                Conduct a case                                                                                                                      Work with
       body system
    (or portion thereof)         study within 1                                                          Yes       Work on
                                                                                                                                            New
                                                                                                                                                                     Office of
                                                                  Does the survey/study indicate                  actions that                                      Regulations          Done
       to determine             year of effective                                                                                    Regulation Needed
                                                                    an action is needed now?                      are needed                                          to draft
      effectiveness of           date of listing
                                                                                                                                                                    regulation
   change to the listing

                                                                            No                                                              Draft and clear policy
                                                                                                                                            memorandums, DDS
                                                                 Continue monitoring the lisitng                    Training               Administrators’ letters,                 Revise expiration
                          Survey the medical and                                                                                       conference calls, emails, etc.                    date
                           vocational literature                                                                                           to provide guidance to
                          Obtain RO, DDS, ODAR input                                                                                           Agency staff
                          Consider Medical staff input
                          Analyze policy questions from                                                                                                                          Continue monitoring
                           the users related to specific                                                                                                                          and seeking input
                                                                At 4 years prior to the expiration
                           listings, documentation                                                                                                                                from Agency staff
                                                                date conduct a case study of all
                           requirements, introduction text
                                                                    listing in the body system
                           guidance, etc.
                          Consider input/reaction from
                           advocacy community
                          Analyze program data

                                                             At 3 years prior to    At 3 years prior to
                                                               expiration date        expiration date
                                                             publish an ANPRM       publish an ANPRM
                                                             – Notify advocacy      – Notify advocacy
                                                                   groups                 groups




                                                                Compile and analyze information and
                                                                      comments from ANPRM




                                                               2 years prior to expiration date develop
                                                                              draft NPRM




                                                               1 year prior to expiration publish NPRM



                                                                     Prior to expiration publish final
                  Appendix F

Agency Comments
                                         SOCIAL SECURITY

MEMORANDUM


Date:      March 25, 2009                                                        Refer To:   S1J-3

To:        Patrick P. O’Carroll, Jr.
           Inspector General


From:      James A. Winn /s/
           Chief of Staff


Subject:   Office of the Inspector General (OIG) Draft Report, “The Social Security Administration’s
           Listing of Impairments” (A-01-08-18023)


           Thank you for the opportunity to review and comment on the draft report. We appreciate OIG’s
           efforts in conducting this review. Our response to the report findings and recommendations is
           attached.

           Please let me know if we can be of further assistance. You may direct staff inquiries to
           Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at (410) 965-4636.

           Attachment:
           SSA Response




                                                         F-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, “THE SOCIAL SECURITY ADMINISTRATION’S LISTING OF
IMPAIRMENTS” (A-01-08-18023)

In general, we agree with the report and recommendations and provide responses to the specific
recommendations below. We are committed to updating the Listing of Impairments (the listings)
at timely intervals. Our new process includes continuous updates and monitoring every 3 to 4
years. These efforts are underway with a goal of updating all of the listings by mid-2010.

Recommendation 1

Update all listings over 5 years old.

Comment

We agree. We have made unprecedented progress in updating the listings over the last
5 years. Not only did we update eight body system listings, we also introduced a Quick
Disability Determination process and a Compassionate Allowance initiative to identify and
process very quickly claims that have an extremely high potential for an allowance. We also
published an Advance Notice of Proposed Rulemaking and hosted outreach conferences for body
system listings that still require updating. Comprehensive updates to these listings are well under
way.

Of equal importance is the new business process we developed to make sure that our listings stay
up to date. This business process seeks input from internal and external stakeholders and is
being praised by the disability advocacy community.

Recommendation 2

Continue to monitor the listings to ensure they reflect medical and technological advances.

Comment

We agree. See our response to recommendation #1.




                                               F-2
                                                                    Appendix G

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Judith Oliveira, Director, Boston Audit Division

   David Mazzola, Audit Manager

   Phillip Hanvy, Acting Audit Manager

Acknowledgments

In addition to those named above:

   Katie Greenwood, Auditor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-01-08-18023.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                 Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                           Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                          Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
